U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Rranxburgaj v. Mayorkas, No. 20-1010
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 21,
2021. The government’s response is now due, after one extension, on March 29, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 28, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1010
RRANXBURGAJ, DED
ALEJANDRO MAYORKAS, SECRETARY OF
HOMELAND SECURITY, ET AL.

NORA SAM AHMED
ACLU OF LOUISIANA
P.O. BOX 56157
NEW ORLEANS, LA 70156
504-522-0628
NAHMED@LAACLU.ORG
BEN C. FABENS-LASSEN
DLA PIPER LLP
ONE LIBERTY PLACE
1650 MARKET STREET
PHILADELPHIA, PA 19103
RICHARD W MARK
GIBSON, DUNN & CRUTCHER LLP
200 PARK AVE.
NEW YORK, NY 10166
212-351-4000
RMARK@GIBSONDUNN.COM
DOUGLAS R. MCKUSICK
THE RUTHERFORD INSTITUTE
PO BOX 7482
CHARLOTTESVILLE, VA 22906-7482
434-978-3888
DOUGLASM@RUTHERFORD.ORG

LEON RODRIGUEZ
SEYFARTH SHAW LLP
975 F STREET, N.W
WASHINGTON, DC 20004
202-828-3572
LERODRIGUEZ@SEYFARTH.COM

